*

M

No.

21-5781

ORIGINAL
Supreme Court, U.o
FILED

SEP 0 3 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

— PETITIONER
(Your Name)
vs.
U.S, $OLXCX\GR

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

R^CX QV CoLUASaJ\ fVPPEiVLS CQUEvV
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

'E.LMb \fc R
(Your Name)
\2S

15-t-K STReRT

(Address)
UJ^C >

2.000 2

(City, State, Zip Code)

202 53 3 -3033
(Phone Number)

Questions

Why were the Respondent and I, as civilians, permitted to get married and renew our vows on an
active military carrier, bringing family and friends aboard as our guests, having a military
command including the ship’s Captains as our personal attendants?
Why was the Respondent permitted to manipulate the Bahraini legal system to obtain Islamic
judgments against me and my daughter by defaming my professional reputation in pediatrics, as
well as my personal character as a mother, and why did the Embassy, State Department, U.S.
Courts, and others back him, in violation of our civil rights, International human rights, right to
due process...?
Why do so many high-ranking military officers, government employees and foreign service
workers all “owe him one” as he put it, and how do these American tax funded relationships
promote the purpose for which our dollars are allocated to these public servants?
Why have so many Bahraini officials, Obama-Biden appointees, unelected employees in the
U.S., overseas, in D.C., even carrying into the Trump, and now Biden-Harris administrations
acquiesced to the Respondent’s whims in obstructing our ability to receive justice, despite us
being American citizens sent on official U.S Department of Defense business?
Why are judges across the country permitted to sit on the bench without oversight or
accountability, when their rulings put our children in harm’s way, get them trafficked, cause
them to commit suicide... and despite judicial officers being jailed for these illegal court order
schemes filmed in the 2013 documentary, Kids for Cash, why are they able to simply override
sentencing to wound up back on our streets?

LIST OF PARTIES

M All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

v,
, k\0. lo-F-n-oa=R bX'S.TRxcrop CaLUnscA
£ov>W OPWEHLS TUbGHBdT &OTER.E® TOLY 22tZOZ\
ftp?<L<\da (k, 9 \ 0-9 H
2tx\\>\JEC V.

1K\Q.io\g OftS OQ22ST- SuP&ftroH court
Euter&o MAY 20/2020

OV TWti 'bESTCXCT Of CcsOO^fluA TliM3M,TiG\~
f\P?(L<rAvX -Sj p \3 of 2°i

7TM&LTA V- Z i-iTOLEJ?, nVq, 2.0\% tAB '2-ic\~i SUPPfirno

_
GOO AT
Of ^ ^srorex of coumexA XOGGniaOr RJTEAEO
LfoV^m&ER (, 2ofl
^p?<mdlv £>,p\u of 2°\
ZriTcxpi V, ZiJL\)L2R,iTo. 201?, ZYB 22=12 SO>P&RrQR ooopr
of TtYte YlSyK-lCT Of CoOUflC>i-A. OOvPGMIVs.m y R Vi TRY v 3 TECErM&gX 2a20(2'

ltafl,pK of 2T
7t<y\XJ&-« Viv ZIXlbLZe, Ro. Zol?,
ZZ0^ sOP&RXOR CoOZr
or-Tfrt xtsmrer of LaLotn^fl ,juTxbnT»4T yyiteqeg Auoost Z3,20i£
(\<TcdxI{x 2>,p2T of 22
•Z-PNiOm, VJ, UM^lT£,kVo Z/OU0M2/ZOR/0 2. a)A>0(nwW p^/EReS)
23/03/ 2o\S Append lye o \ o-S IS \^x^Gt>on of
EY.(vmxc ptxpxps, ' ocfQf eoort

CASES

CoivlTTHOiUt^ . ■'

ZXtAOXES v, ZDgvxer , Mo. M/RZ^lc/2O15/02. KXM6 Do El
Of
TSLArCLC IVFFlVZ^S { IoKGlF COOKF T^J^xE.M£nA~
tkUt^ 3o/W2.0\S , KppoA&vv C,p\7. oi1^
Z-UM'CiLtzR \o

I v'o, A l\TrZ °\U>/ Zo\5/02. KuUG J>OtT
OR £MR<vm HSLAnrc (\frf\L(RS
- 1 WAQF CoOfU 'XLfoGMEMT
OR/ \2/ Z015 l^epcLaAv'y C,pl-o9vq
2i-x\i>CtS, V, Z^vVOCtk, Mo. T/OIoOM2/Zq\G/OZ KXU&Dom
OX ZAV\^ <Vu4 XSGftFVXC. fVFFMX-S
lOJftCLV COOET TUDGpOEiVT
ZvvTXdt^ 29/03; 2q\% , l^tP(Lad;y

c, ? '4 of \q

TABLE OF CONTENTS

f1

OPINIONS BELOW
JURISDICTION

P2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

r3

STATEMENT OF THE CASE

pi

REASONS FOR GRANTING THE WRIT

P 4

CONCLUSION

f 5
INDEX TO APPENDICES

APPENDIX A

^rsvPLLCT

bf CoLUm&LA GoO&T OT /VPPtftLS

APPENDIX B

strict

or Colombia S0P£-^vOv< cauftr

APPENDIX C

KlAGfcQOa
DRbER-S

APPENDIX D

APPENDIX E

APPENDIX F

"JAlAKvUXl HSU\mxC_ L(W COU&T

^

TABLE OF AUTHORITIES CITED

CASES
?£r<r\C!vA-P CoCvSCfvV CjJ3>\oky Order

PAGE NUMBER

i Exhibit B
Exhibit RC

\ncmcraado-m OpnCan arvd yodopncnV o-C
d*M6 ^istoiciV a1? Colom'ova Cajrt of ftppaaU
ft ^ Cft -2T2. Vnichae.\ T.Goaodnan and
^ CiaVOfaVla ,Sr ,P<znn 5V Wan (2-OC°i

o
\

U of- "V*

STATUTES AND RULES

b.O 2>opon’or Coj'T V Codec* o^‘ TodntXcd CbcdocV 'Role d\o
facJ^fa\vsV Paper & S.'S
__

Pfaamfole, doft'e ^xuVoraViQa of uukf <mcte/iC(G
tm^YtLSbioaa\ flaacAvaen-V (Adoption Oa<A

WV*

OTHER

p 2d T
p 4of 1p SoT 2

P Sof T-

$V\cxna IcivJ
P lot- >
VVuif'vYes IP/ 3v/zq\%
(>'H2,13
^OatvNfcJEH^ , C.oG'r \ ddeTccd audl'rU\or
P^o
pi ad aV-»4^ twecyne
. _
p05 -3k
Tc\tfd do \nipose sbana \CUO va 0,0,
VaP Can v^Vcv Oft tMSmt U^Sito^oaAV&cVciS ^nmc/;]+; p 40
v)n'o\o^dV>j dVdd's \vo^^^ntt^-VKt\rtPS‘0-dr\;\c\sjpp. pMM2.

c-\ai <*s X abscond wW W bouo^cvVour \-uJoy WcJteVs ?P3

brans

V\aan a<^

VO 12ol lo \ %

Cmd \ ^ odd >' *

sYvaba ofc\^s■ \5^o<td oadcx
^tkmsis
X U.a.Ojb
bvcz
<§\i\C<b ■£oA> coairaciov p*<tyuok dddd
VtoWLSckaJ ^
^y ckb3 aXAr- Qvtorsras Ao ukkc/li
aid ® 2.0 iOOo ayr,
b\£ cu^isiA) [\ v<\ cAo<ki fcxy \

;p A 3

XA\w Yvs da\n'\ 4\id I a^scoaAflii £aildr\ AVulo
'{\(6 eXavAvid HuJas mdakxVV^ \W.

\>HU

V\(l v.u(tat £orvWr -Vo £>ay X Viar\ Cvq y/oot of
£cvVm<cf\+ , cKAd okoS<t
S <d X<mc\ v f\^ Q
d\\Wd XaAYi c\ \~ vocvvj Ax’eke. V bade k> bid UX,
VxuAn ex ^xvovWr Vxt. yvcWAs ^ aidaBxUy A\
Vml UxA Konvbass
cuxdn -(ZxxxmpWs ek
ibk^ad wc^VucV cxnb abcuadoa m^nk

p BA

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:

ij \
to

The opinion of the United States court of appeals appears at Appendix
the petition and is

JJ/A
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
Ml A
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
„
CouxVWf
[v/For cases fromjsfcate
courts)
The opinion of the highest state court to review the merits appears at
Appendix &
to the petition and is
reported at
Of
iTSLftynljCoy
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the IbAJaTR-iC-T Of CoLUMfeift
court
appears at Appendix &__to the petition and is
[ yf reported at
/b.C..__________________
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
[ ] For cases from federal courts:

K.VO K\v^.

The date on which the United States Court of Appeals decided my case
was________ k)( A__________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
, and a copy of the
Appeals on the following date:
UjA
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date)
(date) on
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

l^j^For cases from state courts: T\C_t

(APPEALS

CoORT

The date on which the highest state court decided my case was
A copy of that decision appears at Appendix.. fc___ ;

/,^-Qjj_

[ ] A timely petition for rehearing was thereafter denied on the following date:
-----LL/A_____________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including k) ( A,
(date) in
(date) on
Application No. __ A__
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

txWCBXv £>
XElXvYt , TOvW 1,2-0
fFOVq v\t5?CMbEkbS fcfltAfT TO TA'W UKivAtft (VbVAtOTi\6t

Of w ?$0 se Simus BY WRcATaji^G VIP OULESS Z Ltr two
cm
FifVjE pv^STOVL (SjC-CJESS. X) TEE
_ ^
__ i^Plv£
K\BXf CotXSEMV OUSTOXT QfcbtR fWAlbSi Tb
YbtWtWr N^oaa&v'* S . ^mbcr Zo,?o\S

Q\ \Af g)X_T_JX>
PvjZTxACE or K£S90krt>uJTS
ffoct

FfXSE CXAXHS TWfYT THpRp WAS Mo

of

SAFE SApftFS LETTER ■ txhWi i 4>
cxeclal t$ ExWTsrrfi
PUBLIC scums ofTWc of S__
YjXSttZCI Of Col\] Ot£XA
_
LETTtfc OX KWlSSXoU pfSET OvX TowifruXiHfrXir \P\6xt'l FEUSt-... BcH-D

nSP

FxWbU_k.
^xeOXXViEAT Of STATE fTv\E<Ub^iT
V),s. bXEWFf Af-Qf ^OSVXCE. ,CIMXL
EXEC&It- b

CXTTZOM &E«\iIC£S ,OTC EYV5SH X
XXOv\TS XIvilSTOki GVbnikVff SXtxW

OfOICE Of COkVG^t^bxon^A SOSbO \VWbIS .ConKUbXXi BEKESt^TAfM
FxAZETT E
PVWSTOS. of

HT

Ql\JILTft.\J U>Fb^TUC

uxultAEX

F ESEjiObboT Olb

CA&iXEA.

E b\bV V

ENi^EkVeb. or PeSfOubt^T. b TALiu PV.0.1U Tftfb x BBOSpb
E^GGVECTEb , bTT) HOT THKe CA L c OJ OF fXkkO HXioOE
GvVTVb

-f? LxAFkW
Ob fWi.LE
ftXMOE

KkVO V:

CAXVb’S

mDcjRSE

V( Ecvj \ S'

VytofXLc. (\W0 LtT'fiS Of. RWeFuaCe.

Petition { ST ATt-rt tMt OF TV\t
The U.S. Department of Defense sent my 7-yr old daughter and I to the Middle East for a 2-yr
contract assignment, as dependents of retired civil servant, Peter Henry Zindler. Once we were
on foreign soil, suspecting nothing, I saw my professional reputation and character slandered by
my husband and pastor, who rapidly obtained an Islamic divorce and custody without a trial and
largely without my knowledge or presence, nor Embassy representation, or a single male
witness... How? According to sharia law females are not human, and according to Consular,
Todd Teddy we were not high profile enough to receive help from the Embassy, and according
to his replacement Consular, Jeff Austin, the State Department’s legal team reviewed our case
and saw no problem with the sharia compliant court orders.
To Americans (morality) means... equal rights for men and women...
but these are contrary to the moral code ofIslam.
Council on American-Islamic Relations (CAIR)
Countless government agencies stood in the way of me returning to America with my child,
cumulating in a six-year ordeal. Then both D.C.’s Superior and Appellate courts ordered me to
reintegrate her back with the Respondent, as one judge after the other refused to acknowledge
forensic evidence, his routine defiance of court orders, multiple and severe forms of child abuse
and neglect, etc., adding another four years of homelessness in D.C. This fact pattern provides
the basis for the jurisdiction of the U.S. Supreme Court to review both the foreign and U.S.
divorce, custody and child support orders, as well as the United States’ role in obstructing
justice, overreaching its authority, and subverting the Constitution.
From the U.S. Embassy to Bahrain, the U.S. State Department, the U.S. Passport office, the U.S.
Department of Justice, Houston International Airport security, the Houston Child Protective
Service, the FBI, the D.C. Superior and Appellate Courts, Joe Biden, Barack Obama and their
Ambassadors to Bahrain, their Consular Todd Teddy and Jeff Austin and their staffers), U.S.
Naval base Bahrain, U.S. Naval Bahrain school administration, Congresswoman Susan Davis,
Senator Barbara Favola, DOD contractor, Camber Corporation, to the Virginia Williams Center
and beyond.
The case could have national significance given that these same abuses are also happening to
millions of us according to the National Association of State Courts. This opens the possibility of
harmonizing conflicting decisions in the federal circuit courts, and/or even providing for
precedential value by resolving the issue of parents and children sustaining irreparable damage
from actions taken by the Executive, Legislative and Judicial branches of our government
including judges like Ciavarella and Conahan, who were finally put behind bars.

p I of >

Timeline
December 20, 2018,

Permanent consent custody orders issued requiring the
child’s wishes and preferences to be considered prior to
reintegration. Superior Court overrode consent ordering
reintegration without the child’s wishes and preferences being
heard prompting her to create a suicide plan.

May 20, 2019,

Superior Court again affirmed their decision to override
the original consent order and reintegrate the child with the
Respondent, despite her suicide plan, forensics, testimony...

July 21,2021,

I filed a notice of motion for contempt of child support.

July 22, 2021,

Appellate court affirmed the lower court’s decision in
less than 24-hrs of my contempt filing also ignoring the
original order and the child’s suicide plan caused by the
lower court stating, “appellant gave her consent...
absent a showing of good cause to set it aside, such as
fraud, duress, or mistake.

In its opinion the Court ignored the suicide plan that resulted from the reintegration order (a good
cause), it ignored my overwhelming distress and dismay at the court’s actions, agreed to only
under the threat of imprisonment, and the ease with which the judge and Respondent’s lawyer
seemed to side against me during the hearing, even continuing after the hearing ended and I went
to the bathroom and so happened to pass by the courtroom on my way out of the building finding
them still engaged. My state of mind while focusing the weight of my attention on giving my
child hope and a reason to live, assuring her that I would not leave her, but would take our case
to the U.S. Supreme Court and do whatever it took to prove that her life is valuable.
D.C. Superior Court Code of Judicial Conduct Rule 2.15 Responding to Judicial and Lawyer
Misconduct. (C)
A judge who receives information indicating a substantial likelihood that another judge
has committed a violation of this Code shall take appropriate action...

The lower court(s) actions run counter to the Judicial Conduct Rule above.

p2 0-9

Continuing, . .No showing ofgood cause has been made... and the record reveals no reason
why the consentjudgment... should not be enforced as written... ” This determination ignores the
Bahraini custody order that prompted the lower court to override the Islamic ruling in Bahrain
that did not meet the threshold for admission in the United States. This was the illegal order that
began the case began with. This statement also ignores all the Respondent’s fact pattern over the
years in the courts in both countries in defaming my character to achieve custody despite
admitting in Court that he has never done anything for the child as evidenced by him repeatedly
being in contempt of court. Further stating “the correct venue to raise afresh challenge to the
validity ofthe parties contract modifying the original 2018 consent agreement... is the Superior
Court.” Yet I was warned that if I did not exercise and abundance of caution I would lose, given
the fact that my pro bono lawyer himself had to pull a case from Steven Wellner’s courtroom
before his client could receive justice. Also affirming his nefarious intentions toward children,
the founder of Courtney’s House shared that this same judge has hurt child victims of trafficking
and denied their rights leading to the creation of Hope Court to get around judges like him,
because their judicial misconduct against children is that prevalent.
Further stating “appellant has failed to show... an abuse ofdiscretion by the trial court in failing
to hold appellant in contempt, a decision that we could reverse...” Yet my numerous contempt
filings all of which were rejected, demonstrate my fervor in trying to show cause for
Respondent’s fact pattern of being in contempt of court, to which the lower Court concluded that
I was “nitpicking”, refusing to discuss the forensic evidence or allow testimony, denying us due
process in an abuse of discretion that only added to the trauma that we have sustained in our
decade of trying to get justice, due to judges showing a total disregard for the rule of law, tilting
the scales of American justice against my child and I.
Refusing our right to return to the U.S., for Embassy Consular Jeff Austin to claim that an
Islamic judgment had been validated by the State Department’s legal team, when the D.C. lower
court readily overruled it, appears to be a gross abuse of power. Presenting proof of our one-way
tickets back to America with -0- dollars to provide food, clothing and shelter for a minor child
constitutes extreme neglect. Attempting to dismiss my claim for child support at the lower Court
constitutes neglect. Not honoring the Court orders unless compelled constitutes neglect. Refusing
to allow the child an education for nearly a decade constitutes neglect. When asked in the lower
Court what he has ever spent on his child, to answer “Nothing” is an admission of severe neglect.

If in addition to this immense advantage, the ambition ofthe members should be
stimulated by the separate and independent possession of militaryforces, it would afford
too strong a temptation and too great a facility to them to make enterprises upon, and
finally to subvert, the constitutional authority of the Union... As far as an army may be
considered as a dangerous weapon of power, it had better be in those hands of which the
people are most likely to be jealous than in those ofwhich they are least likely to be
jealous. For it is a truth, which the experience ofages has attested, that the people are
always most in danger when the means of injuring their rights are in the possession of
those of whom they entertain the least suspicion.

people are most likely to be jealous than in those ofwhich they are least likely to be
jealous. For it is a truth, which the experience ofages has attested, that the people are
always most in danger when the means of injuring their rights are in the possession of
those ofwhom they entertain the least suspicion.
Federalist Paper #25, by Alexander Hamilton

Hamilton’s prophetic warning foretold our current circumstance. In fact, On May 21, 2020,
David Sachar gave a presentation on investigating judicial misconduct for UNODC, in which he
emphasized the importance of transparency and allowing victim stories to be told.
After we left America in 2012, my child experienced multiple and severe abuse, and the neglect
continues at the hands of the Respondent who remains in contempt of child support orders. She
has never received the education, vacations... promised by DOD contractor Camber Corporation
as part of the government benefit package agreed upon prior to the acceptance of their 2-yr
overseas contract assignment. It was understood that having homeschooled my daughter for 2
years prior and having far exceeded their stringent pre-qualifications to continue do so once
overseas, they would pay me $20,000 a year, according to Michelle Callan, Program Control
Manager. At no time before, during or after our move did the Respondent object to these terms
being fully aware of them. Yet at no time and in not a single year did they do any of it. Suddenly
to take my child away from me, once we were outside of the U.S., he filed a claim for sole
custody in Bahrain’s sharia law court writing that I refused to let her go to school, was not a fit
mother, neglected her, etc.
I learned that foreign service workers are required to get an annual family review to ensure that
they are doing well and not being abused, neglected, or isolated. We were provided with nothing
of the sort for 6-yrs, while the Respondent projected onto me what he was doing to her.
My actions have always been and remain the direct opposite of the Respondent’s false claims.
The only time in my child’s life when she was not cared for was when she was in the care of the
Respondent during a 2-week a visit to Wisconsin when she was preschool age, and when I was
away for a week attending to my mother’s affairs upon her passing. The photos of her appearing
to be homeless without even her hair being combed once were appalling to see.
When my daughter has been heard and the evidence reviewed it will become clear that despite
being homeless for nearly a decade because of the Respondent and his vast government network
I have protected, cared for, and educated her from shelter to shelter, using every opportunity to
maximize our surrounding. From eliciting a chef in one location to let my daughter be her
assistant, encouraging staff in another to speak to her in Arabic, requiring her to engage residents
from many nations creating games, developing an exercise'program, distributing new clothing
donated by our Muslim friends to other trafficked women, assisting tutors in teaching younger
students reading skills, to volunteering at a book signing event for Supreme Court Justice Sonia
Sotomayor where they took advantage of a photo op together. It would take more time than this
filing allows to outline all the ways I continue to override our circumstance to enable my child to

? M of *

practice today as if this ordeal is already behind us, not to mention her life of co-working
alongside me prior to leaving America which has been well documented as our reference letters,
endorsements, audio and video testimonials attest. Of the few who have been made aware of our
dire circumstance, none believe it due to her strong debate skills, National Scholastic award in
writing, her contagious passion for life...
However, contrary to the Court’s mandate to “serve the best interest ofthe child’ for more than a
year the child support orders have been violated, with automatic deposits from the Court’s
clearing house continually being reduced by hundreds without warning or explanation. Upon
inquiry I was told it was simply out of their power to change it. Then when the payments stopped
completely, I filed a motion for contempt. Less than 24-hrs later D.C. Appeals Court emailed to
affirm the lower court’s decision to reintegrate my child with the Respondent, ignoring all that is
contained in this petition. As a result, my ability to educate my child has been willfully thwarted
again and again.
We hold these truths to be self-evident, that all men [and woman] are created equal, that
they are endowed by their Creator with certain unalienable Rights, that among these are
Life, Liberty, and the pursuit ofHappiness.
Preamble to the Declaration of Independence
Our rights have been under assault for a decade as her childhood draws to a close. For both lower
courts to dismiss our claims as a “failure to show cause” is incomprehensible. Unwilling to allow
her life to be snuffed out, we now file this case with the U.S. Supreme Court.
Congress enacted the Adoption and Safe Families Act of 1997 requiring that reasonable efforts
to move a child from foster care into adoption should not be required if a court of competent
jurisdiction has determined that,
“the parent has subjected the child to aggravated circumstances i.e.: may include but
need not be limited to abandonment, torture, chronic abuse, and sexual abuse...
While she is not adopted this rule applies in our case. Leaving my child homeless, sending us
back to America with one-way tickets, and penniless is abandonment. Refusing her an education,
or new clothes, pulling her into the shower with him, sitting her on his lap to watch pornography,
taking her to a makeup artist to pose in lingerie, with grown women... are acts of both incest and
sexual abuse, withholding food, forcing her to do labor for free... are each separate accounts of
chronic abuse and neglect. But instead of acting as courts of competent jurisdiction and
reviewing the evidence and hearing testimony, both lower courts generated rulings that caused
her to plan her own suicide. Had I not taken a fierce stand against it her contribution to helping
form a more perfect union would not be possible, because she would be dead by now.
Similar judicial misconduct has resulted in jail time and indictments that have direct relevance to
our case.

p S of lr

On September 9, 2009 in Case #09-CR-272 a Pennsylvania Grand Jury charged judges
Michael T. Conahan and Mark A. Ciavarella, Jr. with “abusing their positions to enrich
themselves... violating the fiduciary duty they owed to the citizens... and to the
judiciary... secretly deriving... improper income... entering into agreements
guaranteeing placement ofjuvenile offenders with PA Child Care, LLC... closing the
county-run youth detention center... granting motions to seal the record... agreements
worth... approximately $58,000,000... in the form of cash, checks, and wire transfers to
pass through intermediaries... causingfalse records to be created... “Placement
Guarantee Agreements) ” knowingly, intentionally and willfully combine, conspire,
confederate and agree together with one another, and together with other persons known
and unknown to the Grand Jury, to defraud the United States by impeding, impairing,
obstructing and defeating the lawful Governmentfunctions... each count constitutes a
separate overt act in furtherance of the conspiracy... requiring them both to forfeit to the
United States all property, real and all property traceable to such property... Pursuant to
Rule 32.2, Federal Rules of Criminal Procedure... ”
While the underlying reason for the coordinated effort among so many agencies in our case is not
known, the sentencing and indictments above provide a basis from which to launch a forensic
examination to determine the nature and substance of such highly leveraged and nefarious efforts
against my child, and whether there are similar motivations at play.
In addition, within two short weeks of fleeing Bahrain, CPS Houston deleted the report we filed
with police at the international airport, according to the Supervisor and the Director I spoke with.
Once we arrived in D.C. and were eventually taken to Virginia Williams, upon speaking with the
Respondent the case worker became determined to have me arrested calling in numerous teams
* of police, each upon speaking with me attempted to inform her that she was acting on
disinformation.
As Americans sent overseas on official U.S. business who had to find our own way back, we
were left unprotected by officials who were supposed to secure our liberties.
While I have focused exclusively on the injustice my daughter has experienced, I invite the Court
to consider how my own trauma has had to be suppressed to protect my child for the last 10-yrs.
When I filed for divorce in the lower court, my petition was for the maximum remedy as
compensation for my losses. In response, because I did not request alimony, the judge stated that
there was nothing further that I was entitled to.
Article III, Section 1, of our U.S. Constitution states that justices of the Supreme Court and other
federal judges “shall hold their Offices during good Behavior” and their removal has been based
on behaving in an “arbitrary, oppressive, and unjust” manner on the bench.
...whenever any Form of Government becomes destructive ofthese ends, it is the Right of
the People to alter or to abolish it, and to institute new Government, laying its foundation
on such principles and organizing its powers in such form, as to them shall seem most
likely to affect their Safety and Happiness.

f UT

Preamble to the Declaration of Independence
For Hashem is our Judge;
Hashem is our Lawgiver/
Hashem is our King;
He will save us.
Isaiah 33:22

FO* SEU Allb
Adelaide Zinaler
Mother/Petitioner

Signed on this 2% +Vi

MinorGttild/Petitioner

day of August 2021

p 1 of T

Reasons for Granting the Petition

Despite the U.S. Department of Defense (DOD) sending us to Bahrain on a temporary 2-yr
contract assignment, it took 6-yrs to finally flee the Middle East with my child, so why the lower
court(s) failed to address what brought us there to seek justice, and why she has been denied
curriculum or school for a decade, and why the Respondent fought to avoid paying child support
when she remains homeless, and repeatedly lied to the courts with impunity, and tried to impose
sharia law in the U.S.? Then why did the judge reduce the child support because it? Why did
both courts deny us our constitutional rights, due process, child safety and what is in her best
interest, leading to the suicide plan my daughter developed seeing that after 2-yrs the court
would force her back with the Respondent whose abuse led to her trauma-based IEP, and 2
suicide watches through Children’s National Hospital.
The lower court(s) decision conflicted with Case #09-CR-272 where a Pennsylvania Grand Jury
sentenced two judges to prison for trafficking children, for abusing their positions and for
violating the fiduciary duty they owed to the citizens, setting the precedent that should have
informed the judicial conduct in this case.
The Supreme Court’s decision in this case holds significance not only for me and my daughter,
but also for the millions of other Americans like me. According to the National Association for
State Courts there are millions of us who are having our children removed similarly by judges in
the U.S. against the law.
In deciding to reintegrate my child with the Respondent who has no intention of returning to
America, the lower court ignored their own orders that overruled sharia law of Bahrain, it
ignored the false pretenses used to take custody away from me, it ignored years of the
Respondent being in contempt of court orders, it ignored all of my pleas to have the evidence
addressed in the court room, it ignored the original consent custody order requiring my child’s
wishes and preferences to be considered, and it ignored why we filed our appeal within 24-hrs of
arriving on Capitol Hill after fleeing Bahrain for her safety, arriving with only one way tickets,
being homeless and penniless.
This case holds both National and International significance because like the Obama-Biden
administration that worked for 6-yrs to prevent me from returning to America with my child, the
same administration continues to make headlines this week, with executive orders that traffick
children across the borders in America, Afghanistan, Latin American and across the globe. By
the U.S. Supreme Court deciding in this case, the world will know that the highest court in the
land does not ignore the safety of children and parents who fight to protect them. At a critical
time when we are all taking note of who will protect the innocent, the U.S. Supreme Court is
poised to prove that it operates not as a servant of the Executive, but as a co-equal branch of our
U.S. government in restoring the deeply tarnished reputation of the judiciary.

pLl

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

8 /2 7-/Z/

?^ a

